OIG Audit Report 02-26
Offices, Boards and Divisions
Annual Financial Statement
Fiscal Year 2001
Report No. 02-26
August 2002
Office of the Inspector General
COMMENTARY AND SUMMARY
The Offices, Boards and Divisions (OBDs) of the Department of Justice consists of the U.S. Attorneys, U.S. Trustees, Office of Community Oriented Policing Services, Executive Office for Immigration Review, Legal Divisions, and general administration offices.  Some of the OBDs' varied responsibilities include representing the American people in all legal matters involving the United States Government, supervising the administration of bankruptcy cases in the Federal Bankruptcy Courts, upholding the civil rights of all Americans, enforcing laws to protect the environment, and safeguarding the consumer from fraudulent activity.  For FY 2001, the OBDs had over $5 billion in total budgetary resources.
This audit report contains the Annual Financial Statement of the OBDs for the fiscal years ended September 30, 2001, and 2000. Under the direction of the Office of the Inspector General, PricewaterhouseCoopers LLP performed the audit, which resulted in an unqualified opinion on the FY 2001 financial statements.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and results of operations of the entity.  The OBDs also received an unqualified opinion on its FY 2000 financial statements (OIG Report 01-20).
The OBDs had two reportable conditions for FY 2001; one condition was a repeat issue and one was a new issue.  In addition, the OBDs successfully addressed a prior year's reportable condition regarding computer security.  The new condition identified for FY 2001 concerns the delegation of financial management and the OBDs' dependency on once-a-year efforts to obtain and analyze financial data.  The repeat issue involves processing financial transactions in accordance with policies and generally accepted accounting principles.  No compliance issues were reported for FY 2001.